              Offices of
          Inspector General


            Department of the Treasury
       Federal Deposit Insurance Corporation
 Board of Governors of the Federal Reserve System
     and Consumer Financial Protection Bureau



Transfer of Office of Thrift Supervision
       Functions Is Completed


                    OIG-14-030
                    AUD-14-005
                   2014-AE-B-004

                   March 26, 2014
Contents


Audit Report

  Results of the Joint Review ......................................................................         2

Appendices

  Appendix    1:      Joint Reports Issued Pursuant to Section 327 .......................                  7
  Appendix    2       FRB Management Comments ..............................................                8
  Appendix    3:      Major Contributors to This Report........................................             9
  Appendix    4:      Report Distribution ............................................................     10

Abbreviations

  CFPB                Consumer Financial Protection Bureau
  FDIC                Federal Deposit Insurance Corporation
  FRB                 Board of Governors of the Federal Reserve System
  OCC                 Office of the Comptroller of the Currency
  OIG                 Office of Inspector General
  OTS                 Office of Thrift Supervision
  Plan                Joint Implementation Plan
  SF-50s              Standard Form 50, Notification of Personnel Action
  Thrift              Federal Savings Association
  Treasury            Department of the Treasury




                      Transfer of Office of Thrift Supervision Functions Is Completed                    Page i
         This Page Intentionally Left Blank.




Transfer of Office of Thrift Supervision Functions Is Completed   Page ii
                       Offices of Inspector General

                         March 26, 2014

                         Janet L. Yellen, Chair
                         Board of Governors of the Federal Reserve System

                         Martin J. Gruenberg, Chairman
                         Federal Deposit Insurance Corporation

                         Thomas J. Curry, Comptroller of the Currency
                         Office of the Comptroller of the Currency

                         This report presents the results of our offices’ seventh and final
                         joint review of the transfer, pursuant to Title III of the Dodd-Frank
                         Wall Street Reform and Consumer Protection Act (Dodd-Frank Act
                         or the Act), of the functions, employees, funds, and property of
                         the former Office of Thrift Supervision (OTS) to the Board of
                         Governors of the Federal Reserve System (FRB), the Federal
                         Deposit Insurance Corporation (FDIC), and the Office of the
                         Comptroller of the Currency (OCC). In accordance with Title III of
                         the Act, the transfer occurred in July 2011.

                         Our joint reviews are mandated by Section 327 of Title III. During
                         our first review, we determined the Joint Implementation
                         Plan (Plan) for the transfer prepared by FRB, FDIC, OCC, and OTS
                         generally conformed to relevant Title III provisions.1 Since then, in
                         accordance with Section 327, this is the sixth joint review we
                         completed to report every 6 months on the status of the Plan’s
                         implementation. In our prior reports, we jointly reported that the
                         Plan has been implemented for the most part, as the functions,


1
    We noted that the plan did not address the prohibition in Title III against the involuntary separation or
    the involuntary reassignment of a transferred OTS employee outside the employee’s locality pay area
    for 30 months (except under certain circumstances). In response, the agencies amended the plan in
    April 2011.


                         Transfer of Office of Thrift Supervision Functions Is Completed              Page 1
                      people, and property of OTS were transferred to FRB, FDIC, and
                      OCC in accordance with Title III and the Plan. We also reported
                      that procedures and safeguards were in place at FDIC and OCC as
                      outlined in the Plan to ensure that transferred employees are not
                      unfairly disadvantaged, a key requirement in Title III. Further, we
                      reported that for savings and loan holding companies and bank
                      holding companies with consolidated assets of $50 billion or more,
                      and nonbank financial companies that FRB is required to supervise
                      pursuant to Section 113 of the Dodd-Frank Act, FRB is to collect
                      assessments, fees, or other charges equal to the expenses FRB
                      estimates are necessary or appropriate to carry out its supervisory
                      and regulatory responsibilities. FRB’s final rule for the collection of
                      assessments, fees, and other charges was published in the Federal
                      Register on August 23, 2013. Accordingly, the rulemaking for
                      FRB’s supervisory assessment pursuant to Section 318 of the
                      Dodd-Frank Act is completed. Appendix 1 lists our prior reports on
                      the transfer of OTS functions.

                      For this reporting period, we determined that both FDIC and OCC
                      complied with the Act by providing the remaining protections
                      afforded to the transferred OTS employees for the required
                      30-month period following the transfer. Accordingly, this is our
                      final joint review of the transfer of the functions, employees,
                      funds, and property of the former OTS to FRB, FDIC, and OCC.

Results of the Joint Review
                      For this 6-month period, we are reporting that both FDIC and OCC
                      complied with the Section 322 requirement to protect transferred
                      OTS employees from certain pay and other personnel actions
                      during the 30-month period following the transfer (July 2011 to
                      January 2014). 2 Additionally, we are reporting on OCC employee
                      utilization of the alternative examiner qualification process as an
                      update to our March 27, 2013, report on this process. As part of
                      our work, we interviewed FDIC’s Deputy Director of Human
                      Resources, FDIC’s Compensation Program Manager, and OCC’s
                      Deputy Comptroller for Human Resources. We also reviewed



2
    Ninety-five (95) OTS employees were transferred to FDIC, and 668 OTS employees were
    transferred to OCC. No OTS employees transferred to FRB under Title III.


                      Transfer of Office of Thrift Supervision Functions Is Completed     Page 2
                        relevant FDIC and OCC documentation. Consistent with our
                        objective, we did not assess FDIC’s or OCC’s overall internal
                        control or management control structure, obtain data from their
                        information systems, or assess the effectiveness of their
                        information system controls. We conducted our fieldwork at FDIC
                        in Arlington, Virginia and OCC in Washington, DC, from
                        December 2013 to March 2014.

                            Protections for Transferred OTS Employees

                            Section 322 of the Dodd-Frank Act provides certain protections
                            for 30-months to former OTS employees transferred to FDIC
                            and OCC. FDIC and OCC were required to ensure all OTS
                            transferred employees were paid at a rate that was not less
                            than the basic rate of pay, including any geographic differential,
                            that the transferred employee received during the pay period
                            immediately preceding the date on which the employee was
                            transferred, except with the consent of the transferred
                            employee.3 The 30-month period of pay protection for former
                            OTS employees began on their effective start date, July 31,
                            2011, and ended on January 31, 2014. 4 In addition,
                            Section 322 required former OTS transferred employees not be
                            involuntarily separated, or involuntarily reassigned outside their
                            locality pay area.5

                            We obtained a listing of the 490 transferred OTS employees
                            who were still employed at OCC as of January 31, 2014, as
                            well as their salaries at the beginning and end of this period,
                            and determined their pay was protected. We sampled 112 of
                            the employees on the listing and compared the salaries on the
                            listing to the salaries on each employee’s Standard Form 50,


3
    As previously reported, at the time of the transfer we determined that, pursuant to Section 322 of
    Title III, transferred employees’ pay was not negatively affected by the transfer.
4
    At the time the employees were transferred, FDIC elected to extend the pay protection until the first
    day of the first full pay period following January 31, 2014, or February 9, 2014, to ease
    administrative burden and decrease the possibility of errors.
5
    Section 322 of the Dodd-Frank Act does not limit the right of OCC or FDIC to separate an employee
    for cause or for unacceptable performance; terminate an appointment to a position excepted from the
    competitive service because of its confidential policy-making, policy-determining, or policy-
    advocating character; or reassign an employee outside such employee’s locality pay area when OCC
    or FDIC determines that the reassignment is necessary for the efficient operation of the agency.


                        Transfer of Office of Thrift Supervision Functions Is Completed           Page 3
                           Notification of Personnel Action (SF-50), without exception. An
                           OCC official told us that, at the time of the transfer, OCC
                           decided not to reduce pay after the protection period and will
                           honor that decision.

                           We also asked the OCC official whether any transferred OTS
                           employees were involuntarily separated or transferred. The OCC
                           official told us that there were two transferred OTS employees
                           that were involuntarily separated because of unacceptable
                           performance,6 which is not a violation of the Dodd-Frank Act. In
                           addition, we sampled 26 of the 178 transferred OTS employees
                           who were no longer employed at OCC as of January 31, 2014.
                           We reviewed their respective SF-50s and determined that their
                           pay was protected for their period of employment at OCC, and
                           that they were not involuntarily separated from the agency,
                           without exception.

                           FDIC selected 95 OTS employees based on “Expressions of
                           Interest.” In that regard, qualified OTS employees were given
                           the opportunity to apply and be considered for those positions
                           through competitive processes in accordance with standard
                           merit principles selection criteria, as an alternative to the OCC
                           placements they were offered. An FDIC official noted that each
                           of the affected employees signed agreements prior to their FDIC
                           employment in which they indicated they understood the impact
                           on their salaries when their pay protection ended.

                           During a prior review, we found that 18 of the 95 OTS
                           employees who transferred to FDIC were impacted by the pay
                           protection requirement.7 More specifically, 12 employees
                           volunteered to accept a lower grade, and 6 employees accepted
                           positions in which their converted FDIC base pay exceeded the
                           FDIC’s pay range for their grade. We reviewed documentation
                           that clearly explained to these 18 employees that their pay
                           protection would expire after the 30-month period.


6
    Based on our review of the two employees’ SF-50s, one of the employees resigned in lieu of
    involuntary action and the other employee was removed as a result of failing to meet performance
    standards.
7
    The remaining OTS transferred employees accepted permanent positions at FDIC with salaries at
    least equivalent to or higher than their OTS salaries prior to transfer.


                       Transfer of Office of Thrift Supervision Functions Is Completed           Page 4
                            During this reporting period, we determined that 11 of these
                            18 employees still received pay greater than the pay range for
                            the position they held at the end of the 30-month pay
                            protection period.8 We reviewed the SF-50s of these employees
                            as of the end of the protection period, and confirmed that FDIC
                            properly protected these individuals’ pay. In addition, though
                            not statutorily required, FDIC provided impacted employees an
                            assessment of their potential salary reduction should their pay
                            still exceed the maximum for their position grade on February 9,
                            2014, by letter on July 12, 2013. We confirmed that impacted
                            employees’ pay was adjusted to the maximum of the range for
                            the positions’ grade they held effective February 9, 2014.

                            OCC Examiner Certification

                            In prior reports, we described the alternative qualification
                            process OCC created to address the differences between
                            national banks and federal savings associations (thrifts) for
                            examination purposes.9 The alternative process allows certain
                            experienced OCC and former-OTS examiners to acquire a
                            universal certification valid for both bank and thrift
                            examinations. OCC implemented the alternative qualification
                            process on January 14, 2013. As of January 2014,
                            approximately 13 percent of transferred OTS examiners and
                            19 percent of all OCC examiners (including transferred OTS
                            employees) had earned the alternative bank and thrift examiner
                            accreditation. An OCC official stated that implementation of the
                            new accreditation is an ongoing process and employees are still
                            working toward obtaining it.

                        We provided a draft of this report to FRB, FDIC, and OCC. We
                        received a written response from FRB. FRB stated in its written
                        response that it agrees it has completed the requirements pursuant


8
    Of the 18 transferred employees, 3 employees separated and 4 received promotions that put their
    pay in range of their new position’s pay band.
9
    After the transfer and prior to implementation of the alternative qualification process, all thrift
    examiners interested in leading bank examinations needed to first pass the Uniform Commission
    Examination; the same was true for bank examiners looking to lead thrift examinations. The
    alternative process created two cross-certification tests that provided examiners a means of
    becoming universally certified for thrift and bank examinations.


                        Transfer of Office of Thrift Supervision Functions Is Completed             Page 5
                    to Section 318 of the Act concerning supervisory fees and
                    assessments. With regard to FRB’s other responsibilities under the
                    Act to prepare for and complete the transfer, it concurs with the
                    report’s overall conclusion that the transfer of OTS responsibilities
                    is complete. We received no written comments from FDIC;
                    however, FDIC agreed with the conclusions contained in the report
                    that the transfer of OTS functions is complete. OCC reviewed the
                    report and had no comments. FRB’s written response is included in
                    this report as appendix 2.

                    We conducted this performance audit in accordance with generally
                    accepted government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objective. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objective.

                                                      *******

                    We appreciate the courtesies and cooperation provided to our
                    staffs during the audit. If you wish to discuss the report, you may
                    contact Marla A. Freedman, Assistant Inspector General for Audit,
                    Treasury Office of Inspector General (OIG), at (202) 927-5400;
                    E. Marshall Gentry, Assistant Inspector General for Evaluations,
                    FDIC OIG, at (703) 562-6378; or Melissa M. Heist, Associate
                    Inspector General for Audits and Evaluations, FRB and Consumer
                    Financial Protection Bureau (CFPB) OIG, at (202) 973-5024. Major
                    contributors to this report are listed in appendix 3.



       /s/                                   /s/                                      /s/

Eric M. Thorson                 Fred W. Gibson, Jr.                      Mark Bialek
Inspector General               Acting Inspector General                 Inspector General
Department of the               Federal Deposit Insurance                Board of Governors of the
Treasury                        Corporation                              Federal Reserve System
                                                                         and Consumer Financial
                                                                         Protection Bureau




                    Transfer of Office of Thrift Supervision Functions Is Completed           Page 6
Appendix 1
Joint Reports Issued Pursuant to Section 327




Review of the Joint Implementation Plan for the Transfer of Office
of Thrift Supervision Functions; OIG-11-064, Department of the
Treasury Office of Inspector General (Treasury OIG);
FRB OIG 2011-02, Board of Governors of the Federal Reserve
System and Consumer Financial Protection Bureau OIG (FRB-CFPB
OIG); EVAL-11-002, Federal Deposit Insurance Corporation
OIG (FDIC OIG) (Mar. 28, 2011)

Status of the Transfer of Office of Thrift Supervision Functions,
OIG-11-109, Treasury OIG; FRB OIG 2011-04, FRB-CFPB OIG;
EVAL-11-005, FDIC OIG (Sep. 28, 2011)

Status of the Transfer of Office of Thrift Supervision Functions:
OIG-12-046, Treasury OIG; FRB OIG 2012-01, FRB-CFPB OIG;
EVAL-12-004, FDIC OIG (Mar. 21, 2012)

Status of the Transfer of Office of Thrift Supervision Functions;
OIG-12-075, Treasury OIG; FRB OIG 2012-09, FRB-CFPB OIG;
AUD-12-015, FDIC OIG (Sep. 26, 2012)

Status of the Transfer of Office of Thrift Supervision Functions;
OIG-13-035, Treasury OIG; 2013-IE-B-003, FRB-CFPB OIG;
AUD-13-005, FDIC OIG (Mar. 27, 2013)

Status of the Transfer of Office of Thrift Supervision Functions;
OIG-13-054, Treasury OIG; 2013-AE-B-014, FRB-CFPB OIG;
AUD-13-008, FDIC OIG (Sep. 26, 2013)




Transfer of Office of Thrift Supervision Functions Is Completed   Page 7
Appendix 2
FRB Management Comments




Transfer of Office of Thrift Supervision Functions Is Completed   Page 8
Appendix 3
Major Contributors to This Report




Board of Governors of the Federal Reserve System and Consumer
Financial Protection Bureau Office of Inspector General (OIG)

    Kyle Brown, OIG Manager
    Jonathan Park, Senior Auditor and Project Lead

Federal Deposit Insurance Corporation OIG

    A. Michael Stevens, Evaluations Manager
    Travis Sumner, Auditor

Department of the Treasury OIG

    Susan Barron, Audit Director
    Alicia Weber, Audit Manager
    John Tomasetti, Auditor-in-Charge
    James Lisle, Referencer




Transfer of Office of Thrift Supervision Functions Is Completed   Page 9
Appendix 4
Report Distribution




Board of Governors of the Federal Reserve System

    Chair

Federal Deposit Insurance Corporation

    Chairman

Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




Transfer of Office of Thrift Supervision Functions Is Completed   Page 10
